OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S OFFICE
OF FOOD FOR PEACE
SYRIA-RELATED ACTIVITIES
(EXECUTIVE SUMMARY)

AUDIT REPORT NO. 8-276-14-003-P
JULY 30, 2014




FRANKFURT, GERMANY
This is a summary of our report on the “Audit of USAID’s Office of Food for Peace Syria-Related
Activities.”

More than 3 years after Syria was riven by civil war, some 6.4 million people have been
internally displaced and almost 11 million are in need of humanitarian aid. Food prices have
soared, and the number of people vulnerable to food insecurity has as well.1 Reports state that
in Aleppo and Idleb Governorates in northern Syria—areas targeted by USAID’s Office Food for
Peace (FFP)—food commodity prices increased by 40 to 50 percent in early January 2014 due
to increased fighting. One assessment of Dar’a Governorate in southern Syria—an area also
targeted by FFP—found that 75 percent of the population needed food assistance.

Prices for bread—a staple of the Syrian diet—have increased during the crisis, due in part to a
lack of ingredients like flour and fuel to power the bakery. According to one analysis, in
January 2014 the price of unsubsidized bread across Syria ranged from 50 Syrian pounds
(SYPs) to 500—significantly more than the typical cost of subsidized bread, which was
15 SYPs.2 By March 2014 bread prices continued to grow because fewer baking facilities were
available and ingredients and fuel continued to be in short supply.

The ongoing conflict and changing situation in Syria have made it challenging to provide the
necessary humanitarian aid. According to USAID officials and Agency implementers, the
situation in the northern part of the country has changed since the start of the conflict. Initially, it
was between the national government in Damascus and the Syrian opposition, with some level
of stability in areas controlled by the opposition. However, Syria is now in the middle of
two armed conflicts—one between the government and opposition forces, and one between
extremists and more moderate factions of the opposition. This has caused security to
deteriorate throughout the country and limited access to northern Syria. Southern Syria has
seen ongoing fighting since the conflict began.

One of FFP’s primary objectives is to provide food assistance in emergencies. During such
times, FFP supports activities that focus on maintaining or improving the nutritional status of
people affected. This can be done by using food procured locally, regionally, or from the United
States, or by providing people with cash transfers and food vouchers. In Syria, FFP has
awarded more than $440 million to the UN and nongovernmental organizations during fiscal
years 2012 and 2013.3

The Regional Inspector General/Frankfurt (RIG/Frankfurt) conducted this audit to determine
whether USAID’s FFP program is providing food for the intended recipients in Syria.

The audit concluded that food commodities, including flour and food rations, were reaching
northern and southern Syria through the program. As of February 2014, FFP implementers had
procured more than 24,000 metric tons of flour and more than 195,000 food parcels. However,
the audit identified areas for improvement for which we made five recommendations.

1
  Food insecurity occurs when people do not have constant access to enough safe, nutritious food to

maintain a healthy, active life. 

2
  Assessment Capacities Project and MapAction’s Syria Needs Analysis Project, Regional Analysis Syria,

04 April 2014. Part I - Syria. As of January 2014, $1 was equal to 139 SYP. 

3
  This included approximately $372 million provided to the UN World Food Program in grants and in-kind
contributions to support emergency operations for Syria. Activities implemented by the World Food

Program using FFP funding were not part of this audit.


                                                                                                      1
Management decisions were acknowledged on three of five recommendations and final action
was taken on two recommendations.




                                                                                      2
U.S. Agency for International Development
       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
